No. ___________
IN THE SUPREME COURT OF THE UNITED STATES

ROBERTO ELIAS MARTINEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Roberto Elias Martinez, pursuant to Rule 39 and 18 U.S.C. ยง
3006A(d)(6), asks leave to file the accompanying Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit without prepayment of costs and
to proceed in forma pauperis. Petitioner was represented by counsel appointed under
the Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United States District
Court for the Northern District of Texas and on appeal to the United States Court of
Appeals for the Fifth Circuit.
Respectfully submitted this the 19th day of February, 2021.

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

/s/ Christopher A. Curtis
Christopher A. Curtis **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2753

